 D-2008-064                      March 18, 2008




Defense Hotline Allegations Concerning the Biometric
 Identification System for Access Omnibus Contract
 Additional Information and Copies

 The Department of Defense Office of the Deputy Inspector General for Auditing,
 Acquisition and Contract Management prepared this report. If you have questions
 or would like to obtain additional copies of the draft report, contact
 Ms. Jacqueline L. Wicecarver at (703) 604-9077 (DSN 664-9077) or Mr. Sean A.
 Davis at (703) 604-9049 (DSN 664-9049).

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                            ODIG-AUD (ATTN: Audit Suggestions)
                            Department of Defense Inspector General
                            400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

BISA                 Biometric Identification System for Access
C-E LCMC             Communications Electronics Life Cycle Management Command
CSC                  Computer Sciences Corporation
DFARS                Defense Federal Acquisition Regulation Supplement
FAR                  Federal Acquisition Regulation
I3                   Ideal Innovations Incorporated
STI                  Sensor Technologies Incorporated
S3                   Strategic Services Sourcing
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                          March 18, 2008

MEMORANDUM FOR AUDITOR GENERAL, DEPAR1MENT OF TIlE ARMY

SUBJECT: Report on Defense Hotline Allegations Concerning the Biometric
         Identification System for Access Omnibus Contract (Report No. D-2008-
         064)


         We are providing this report for your information and use. No written response to
this report was required and none was received. Therefore, we are publishing this report
in final form.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Jacqueline L. Wicecarver at (703) 604-9077 (DSN 664-9077) or Mr. Sean A.
Davis at (703) 604-9049 (DSN 664-9049). See Appendix B for the report distribution.
The team members are listed inside the back cover.




                                  Deputy Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2008-064                                                     March 18, 2008
   (Project No. D2007-D000AS-0157.000)

           Defense Hotline Allegations Concerning the Biometric
            Identification System for Access Omnibus Contract

                                 Executive Summary

Who Should Read This Report and Why? Contracting personnel involved with the
Biometric Identification System for Access (BISA) should read this report because it
provides an assessment of whether fair opportunity was given to the contractors who
competed for a task order on the BISA omnibus contract.

Background. According to the Strategic Services Sourcing (S3) performance work
statement, the purpose of the BISA is to provide a biometric base access control system
that can operate in a hostile environment. The DoD Biometrics Program Manager within
the Program Executive Office-Enterprise Information Systems is responsible for the
BISA.

We conducted this audit in response to multiple allegations made by three complainants
to the Defense Hotline regarding the award of the BISA omnibus contract under the
Army’s S3 contract vehicle. We also reviewed whether source selection procedures
complied with Federal and DoD policy. The complainants’ allegations follow.

Complainant 1 stated that Ideal Innovations Incorporated (I3) had access to information
not available to all vendors; I3 employees helped develop the requirements; and the
contracting officer failed to comply with Federal Acquisition Regulation Part 15.506,
“Postaward Debriefing of Offerors,” which requires a debrief to an offeror. The task
order was awarded to Sensor Technologies, Inc. (STI), with a bid of $563 million while
the Computer Sciences Corporation (CSC) bid was $250 million, and data were provided
on the U.S. Army Communications Electronics Life Cycle Management Command Web
site that indicated the contract would cost between $270 million and $340 million.

Complainant 2 stated that 10 percent of employees from STI supported the Biometrics
Program Manager, the original independent Government cost estimate was adjusted to
accommodate the STI bid, the S3 contracting vehicle does not allow debriefs for losing
offerors, I3 employees had exclusive access to sensitive contract labor rate data, and I3
and Northrop Grumman employees had access to acquisition sensitive meetings.

Complainant 3 stated that there were firewall problems and insider relationships within
the program management office.

Results. The audit team did not substantiate the allegations from Complainant 1.
Complainant 1 was unable to provide any documentation to support the allegations;
according to a Communications Electronics Life Cycle Management Command
memorandum, I3 employees did not write the requirements or have a conflict of interest
by having exclusive access to acquisition sensitive data, and an informal post-award
debrief was held. The audit team determined, after reviewing the technical evaluations,
cost proposals, and the source selection documentation, that all of the bidding contractors
were given a fair opportunity to compete. The Joint Urgent Operational Needs Statement
briefing slides posted on the U.S. Army Communications Electronics Life Cycle
Management Command Web site indicated that the contract would cost between
$270 million and $340 million. However, the briefing included a statement at the
beginning that specifically stated not to use the figures as a basis for anything and that the
briefing had not been updated to reflect subsequent changes to the Government’s funding
strategy.

We also did not substantiate the allegations from Complainant 2. No documentation was
discovered substantiating that 10 percent of STI’s employees directly supported the
Biometrics Program Manager. The Biometrics Program Manager stated that the
independent Government cost estimate was updated; however, based on her statement we
could not validate that it was adjusted to accommodate the STI bid. According to a
Communications Electronics Life Cycle Management Command memorandum, I3
employees did not have access to acquisition sensitive data.

In addition, the audit team did not substantiate the allegations from Complainant 3.
There was no documentation provided that validated I3 had insider relationships within
the program management office, that I3 employees had access to sensitive information,
or that there were firewall problems. Additionally, the Communications Electronics Life
Cycle Management Command legal department determined that no conflict of interest
existed relating to CSC’s and I3’s ability to compete on the follow-on contract because
Federal Acquisition Regulation Part 9.505-2(a)(3) does not prohibit a contractor from
bidding on a subsequent effort for technology they have designed or developed.

Management Comments. We provided a draft of this report on January 25, 2008. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                              ii
Table of Contents

Executive Summary                     i

Background                            1

Objective                             1

Review of Internal Controls           1

Finding
     BISA S3 Task Order Allegations   2

Appendixes
     A. Scope and Methodology         6
     B. Report Distribution           8
Background
     We performed this audit in response to three separate allegations made to the
     Defense Hotline concerning the acquisition of the Biometric Identification System
     for Access (BISA) omnibus indefinite-delivery, indefinite-quantity contract under
     the Army’s Strategic Services Sourcing (S3) contract vehicle. According to the
     BISA S3 performance work statement, the purpose of BISA is to provide
     biometric base access control that can operate in a hostile environment. The DoD
     Biometrics Program Manager within the Program Executive Office-Enterprise
     Information Systems is responsible for the BISA.


Objective
     Our overall audit objective was to review the allegations made to the Defense
     Hotline concerning the acquisition of the BISA omnibus contract under the
     Army’s S3 contract vehicle. Specifically, we determined whether the allegations
     had merit and whether source selection procedures were conducted in compliance
     with Federal and DoD policy. See Appendix A for a discussion of the scope and
     methodology and the Finding section for a discussion of the allegations.


Review of Internal Controls
     DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006, states that internal controls are the organization, policies, and
     procedures that help program and financial managers to achieve results and
     safeguard the integrity of their programs.

     This report is provided in response to allegations made to the Defense Hotline.
     The scope of the report is limited to those specific allegations. Accordingly, a
     review of the managers’ internal control program was not performed.




                                           1
            BISA S3 Task Order Allegations
            The allegations submitted to the Defense Hotline concerning the award of
            the BISA omnibus contract under the Army’s S3 contract vehicle
            generally stated that not all contractors were provided access to all
            information, some contractors or staff had insider information about the
            ongoing business activities, and the award process did not comply with
            Federal Acquisition Regulation (FAR) requirements. We did not
            substantiate these allegations because the three complainants could not
            provide documentation to support their claims, and we did not find
            evidence to support the allegations. We did not find documentation that
            identified the contract award process was inappropriately administered;
            we determined that proper source selection procedures were followed. As
            a result, the task order was awarded with fair opportunity.


Fair Opportunity and Best Value Policies
     Federal Acquisition Regulation. FAR Part 16.505(b), “Ordering,” states that for
     “orders under multiple award contracts . . . the contracting officer must provide
     each awardee a fair opportunity to be considered for each order exceeding $3,000
     issued under multiple delivery-order contracts or multiple task-order contracts.”

     FAR Part 2.101, “Definitions,” defines best value as “the expected outcome of an
     acquisition that, in the Government’s estimation, provides the greatest overall
     benefit in response to the requirement.”


Complainants’ Allegations
     Three complainants submitted multiple allegations to the Defense Hotline
     regarding the award of the BISA S3 task order. These allegations generally stated
     that not all contractors were provided access to all information, some contractors
     or staff had insider information about the ongoing business activities, and the
     award process did not comply with FAR requirements. All of the complainants
     believed the BISA S3 task order was awarded unfairly to Sensor Technologies,
     Inc. (STI). STI won the award with a bid of $563,409,366 while the incumbent
     Computer Sciences Corporation (CSC) bid $250,077,662. The following is a
     summary of the allegations and our results for each.

     Complainant 1 had five allegations and stated that:

     1. Ideal Innovations Incorporated (I3) had access to information not available to
        all vendors because I3 employees were overseeing the daily activities of the
        BISA badging contract.

     2. I3 contractors helped develop the requirements and initiate potential solutions
        for the BISA contract.


                                         2
3. The contracting officer failed to comply with FAR Part 15.506, which
   requires an offeror to be debriefed and furnished the basis for the selection
   decision and contract award upon written request within 3 days of contract
   award notification.

4. The S3 task order was awarded to STI for $563 million, whose bid was more
   than twice the $250 million that CSC bid.

5. Prior to the final award date, the Source Selection Authority provided data on
   the U.S. Army Communications Electronics Life Cycle Management
   Command (C-E LCMC) Web site that indicated that the contract would cost
   between $270 million and $340 million.

Audit Results. We did not substantiate the allegations. Complainant 1 was
unable to provide any documentation to support the allegations, and according to
a C-E LCMC memorandum, I3 employees did not write the requirements or have
exclusive access to acquisition sensitive data. A C-E LCMC memorandum
response to the allegation states that I3 did not develop the requirements, they did
not have exclusive access to information not available to all bidders, nor did they
serve as Government employees.

The C-E LCMC contracting officer told the audit team that C-E LCMC held an
informal post-award debrief with CSC, the prime contractor on the S3 contract,
and the Program Executive Office for Enterprise Information Systems in which
they discussed CSC’s proposal and C-E LCMC’s technical evaluation of the
proposal. The contracting officer provided the audit team with e-mails and notes
from the informal post-award debrief. According to its notes, C-E LCMC held an
informal post-award debrief via teleconference on January 19, 2007. CSC was
given feedback from the contracting officer and the Biometrics Program Manager
on some of the reasons why they were not awarded the BISA S3 task order. The
C-E LCMC task order ombudsman told us that the complainant, a subcontractor
to CSC, was not allowed to attend the informal post-award debrief because he did
not have privity. CSC is the prime contractor who competed for the task order;
therefore, it had privileges that the complainant, as a subcontractor, did not have.
The C-E LCMC contracting officer told us that the contracting office has to
obtain permission from the prime contractor before they can speak with the
subcontractor. The C-E LCMC task order ombudsman also provided the audit
team with an e-mail from a contracts manager at CSC that showed that CSC
understood the weaknesses in its proposal and it considered the task order award
issue closed.

The FAR does not require post-award debriefs for the award of task orders.
FAR Part 15.506 mentions that post-award debriefs are given to an offeror for a
contract award; however, it does not mention debriefs occurring for a task order
award. The C-E LCMC contracting officer told the audit team that debriefs are
usually not provided for task or delivery order awards but this was an exception.
CSC requested the debrief because of the magnitude of the S3 proposal and was
aware that the debrief was a special circumstance.

According to officials at the Army Program Executive Office for Enterprise
Information Systems, the C-E LCMC posted on its Web site the Joint Urgent


                                     3
Operational Needs Statement briefing slides so that all of the contractors would
have access to the same information that was unintentionally disclosed by the
Biometrics Fusion Center. According to Complainant 1, information was
included in the slides that indicated the contract would cost between $270 million
and $340 million. However, the briefing included a statement at the beginning
that specifically stated not to use the figures as a basis for anything and that the
briefing had not been updated to reflect subsequent changes to the Government’s
funding strategy.

Complainant 2 had four allegations and stated that:

   1. Approximately 10 percent of employees from STI, who won the contract,
      directly supported the Biometrics Program Manager.

   2. The original independent Government cost estimate was adjusted to
      accommodate the higher STI bid.

   3. The S3 contract vehicle did not allow for debriefs or protests for the losing
      offerors.

   4. I3 and Northrop Grumman had access to acquisition sensitive meetings
      without adequate firewall protection.

Audit Results. We did not substantiate the allegations. No documentation was
discovered that substantiated the claim that 10 percent of STI’s employees
directly supported the Biometrics Program Manager.

Although we determined that the independent Government cost estimate was
adjusted, we could not validate that the adjustment was made to accommodate
STI’s higher bid. The Biometrics Program Manager stated that the independent
Government cost estimate was updated by the program management office
because it was determined that some important requirements were unintentionally
left out. The program manager realized there had been some disconnects due to
policy changes and program direction and that the final performance work
statement, which included changes in site requirements, had not been received by
the preparer of the independent Government cost estimate. According to the
selection decision document for the BISA task order, because of the wide variety
of proposals received, an outside expert team was brought in to re-evaluate the
independent Government cost estimate. The C-E LCMC contracting officer
determined that fair opportunity was provided to all of the competing contractors.
This document also states that based on the analysis done of the proposals, the
C-E LCMC contracting officer decided that the STI proposal represented the best
overall value to the Government. An informal post-award debrief was held and
the losing contractor was satisfied and replied in an e-mail that it considered the
issue involving the award of the BISA S3 task order closed. We found no
evidence that I3 had access to sensitive meetings or was provided sensitive
contract labor rate data.




                                     4
     Complainant 3 had two allegations and stated that:

     There were firewall problems and insider relationships within the program
     management office.

     Audit Results. We did not substantiate the allegations. Complainant 3 could not
     provide documentation that proved that there were insider relationships within the
     program management office involving I3 employees or that there were firewall
     problems. Additionally, the C-E LCMC legal department determined that no
     conflict of interest existed relating to CSC’s and I3’s ability to compete on the
     follow-on contract because FAR Subpart 9.505-2(a)(3) does not prohibit a
     contractor from bidding on a subsequent effort for technology they have designed
     or developed. We did not identify documentation that showed that I3 employees
     had access to sensitive information.


Source Selection Process
     After reviewing the technical evaluations, cost proposals, and the source selection
     documentation, we determined that the bidding contractors were given a fair
     opportunity to compete as required for multiple award contracts in FAR
     Part 16.505. The C-E LCMC contracting officer and the selection board
     determined that the overall risk for successful completion within the time and cost
     for CSC’s proposal was too high; therefore, it was not selected for the award. The
     contracting officer stated in the selection decision memorandum that STI’s
     proposal was the best value for the Government, and it involved the least amount
     of risk when compared with the other competing contractors.

     We did not substantiate the allegations made by the three complainants to the
     Defense Hotline. We determined the task order was awarded with fair
     opportunity; therefore, we made no recommendations.




                                          5
Appendix A. Scope and Methodology
   We conducted this audit from March 2007 through October 2007 in accordance
   with generally accepted government auditing standards. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objectives.

   The scope of this audit was limited to a review of the allegations made to the
   Defense Hotline concerning the BISA omnibus contract. Specifically, we
   determined whether the source selection procedures were conducted in
   compliance with Federal and DoD policy.

   We interviewed and obtained documentation from the Biometrics Program
   Manager, the Communications Electronics Life Cycle Management Command
   (C-E LCMC) contracting officers and task order ombudsman, the Army Audit
   Agency, a representative at the Biometrics Fusion Center, and an individual who
   was involved with the original BISA contract and with developing one of the
   proposals for the Strategic Services Sourcing (S3) task order. The audit team also
   spoke with the two known complainants.

   We obtained information for the audit through meetings and e-mails with the
   personnel above. We reviewed and analyzed laws, policies, guidance, and
   documentation dated from March 2005 through February 2007. Specifically we
   reviewed and compared:

      •   FAR Subpart 15.1, “Source Selection Processes and Techniques,”
          November 22, 2006; FAR Subpart 16.505(b), “Orders under multiple
          award contracts,” February 12, 2007; FAR Subpart 2.101, “Definitions,”
          February 12, 2007; Defense Federal Acquisition Regulation Supplement
          (DFARS) Subpart 216.5, “Indefinite-Delivery Contracts,” Subsection
          216.505-70, “Orders under multiple award contracts,” March 21, 2006;
          Technical Evaluation Form, signed December 19, 2006; Memorandum for
          Record, “Selection Decision Document, Contract W15P7-06-D-
          E403/Task Order 0009,” December 21, 2006; and Joint Urgent
          Operational Needs Briefing for the Joint Rapid Acquisition Cell, June 1,
          2006, for source selection requirements and for compliance with the
          requirements.

      •   FAR Subpart 33.1, “Protests,” September 28, 2006, for task order disputes
          requirements.

      •   FAR Subpart 15.5, “Preaward, Award, and Postaward Notifications,
          Protests, and Mistakes,” March 2005, for contractor briefings
          requirements.

      •   FAR Subpart 15.4, “Contract Pricing,” November 22, 2006; and DFARS
          Subpart 215.4, “Contract Pricing,” December 1, 2006, for contract pricing
          requirements.


                                        6
       •   FAR Part 43, “Contract Modifications,” March 2005; FAR Subpart 2.101,
           “Definitions,” February 12, 2007; DFARS Subpart 217.74, “Undefinitized
           Contract Actions,” May 12, 2006; Strategic Services Sourcing
           performance work statement, solicitation number W15P7T-05-R-E401,
           July 12, 2005, for task order modification requirements.

       •   FAR Subpart 7.5, “Inherently Governmental Functions,” May 19, 2006;
           and DFARS Subpart 207.5, “Inherently Governmental Functions,”
           March 21, 2006, for determination of inherently governmental functions.

       •   FAR Subpart 4.8, “Government Contract Files,” November 22, 2006; and
           DFARS Subpart 204.8, “Contract Files,” September 8, 2006, for contract
           file components requirements.

    The scope of the audit was limited to a review of the allegations to the Defense
    Hotline concerning the acquisition of the BISA omnibus contract under the
    Army’s S3 contract vehicle.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use any technical assistance to perform
    this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the “DoD Contract Management” and “Establishing
    Appropriate and Effective Information-Sharing Mechanisms to Improve
    Homeland Security” high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the BISA omnibus contract during the
    last 5 years.




                                         7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Program Executive Officer, Enterprise Information Systems
   Program Manager, DoD Biometrics
Director, Communications-Electronics Life Cycle Management Command Acquisition
   Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       9
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Sean A. Davis
Susan H. Bachle
Adam J. McLaurin
Sherry A. Nuckolls
Meredith H. Johnson
